<html>
<title> - PROVIDING VULNERABLE YOUTH THE HOPE OF A BRIGHTER FUTURE THROUGH JUVENILE JUSTICE REFORM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                  PROVIDING VULNERABLE YOUTH THE HOPE
                 OF A BRIGHTER FUTURE THROUGH JUVENILE
                             JUSTICE REFORM

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 15, 2017

                               __________

                            Serial No. 115-5

                               __________

  Printed for the use of the Committee on Education and the Workforce



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                                     _______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-499 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

               VIRGINIA FOXX, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia
David P. Roe, Tennessee              Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Lou Barletta, Pennsylvania           Jared Polis, Colorado
Luke Messer, Indiana                 Gregorio Kilili Camacho Sablan,
Bradley Byrne, Alabama                 Northern Mariana Islands
David Brat, Virginia                 Frederica S. Wilson, Florida
Glenn Grothman, Wisconsin            Suzanne Bonamici, Oregon
Steve Russell, Oklahoma              Mark Takano, California
Elise Stefanik, New York             Alma S. Adams, North Carolina
Rick W. Allen, Georgia               Mark DeSaulnier, California
Jason Lewis, Minnesota               Donald Norcross, New Jersey
Francis Rooney, Florida              Lisa Blunt Rochester, Delaware
Paul Mitchell, Michigan              Raja Krishnamoorthi, Illinois
Tom Garrett, Jr., Virginia           Carol Shea-Porter, New Hampshire
Lloyd K. Smucker, Pennsylvania       Adriano Espaillat, New York
A. Drew Ferguson, IV, Georgia

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EARLY CHILDHOOD, ELEMENTARY, AND SECONDARY EDUCATION

                     TODD ROKITA, Indiana, Chairman

Duncan Hunter, California            Jared Polis, Colorado
David P. Roe, Tennessee                Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Raul M. Grijalva, Arizona
Luke Messer, Indiana                 Marcia L. Fudge, Ohio
David Brat, Virginia                 Suzanne Bonamici, Oregon
Tom Garrett, Jr., Virginia           Susan A. Davis, California
                                     Frederica S. Wilson, Florida
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 15, 2017................................     1

Statement of Members:
    Polis, Hon. Jared, Ranking Member, Subcommittee on Early 
      Childhood, Elementary, and Secondary Education.............     4
        Prepared statement of....................................     5
    Rokita, Hon. Todd, Chairman, Subcommittee on Early Childhood, 
      Elementary, and Secondary Education........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Cubbon, Hon. Denise N., Administrative Judge, Lucas County 
      Juvenile Division..........................................    29
        Prepared statement of....................................    31
    Flannelly, Mr. Patrick J., Chief of Police, Lafayette Police 
      Department.................................................    22
        Prepared statement of....................................    25
    Reed, Mr. Stephen M., Executive Director, Safe Place 
      Services, YMCA of Greater Louisville.......................    36
        Prepared statement of....................................    39
    Williams, Ms. Meg, Manager, Office of Adult and Juvenile 
      Justice Assistance, Division of Criminal Justice, Colorado 
      Department of Public Safety................................    13
        Prepared statement of....................................    16

Additional Submissions:
    Judge Cubbon, response to questions submitted for the record.    62
    Mr. Polis, letter dated November 22, 2016 from The Secretary 
      of Education...............................................     7
    Chairman Rokita:
        Slide: Fast Facts on Juvenile Justice....................    58
        Questions submitted for the record.......................    61

 
                  PROVIDING VULNERABLE YOUTH THE HOPE
                     OF A BRIGHTER FUTURE THROUGH
                        JUVENILE JUSTICE REFORM

                              ----------                              


                      Wednesday, February 15, 2017

                        House of Representatives

               Committee on Education and the Workforce,

            Subcommittee on Early Childhood, Elementary, and

                           Secondary Education

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Todd Rokita 
[chairman of the subcommittee] presiding.
    Present: Representatives Rokita, Roe, Messer, Brat, 
Garrett, Polis, Fudge, and Bonamici.
    Also Present: Representatives Foxx, and Scott.
    Staff Present: Courtney Butcher, Director of Members 
Services and Coalitions; Tyler Hernandez, Deputy Communications 
Director; Amy Raaf Jones, Director of Education and Human 
Resources Policy; Nancy Locke, Chief Clerk; Dominique McKay, 
Deputy Press Secretary; James Mullen, Director of Information 
Technology; Brian Newell, Communications Director; Krisann 
Pearce, General Counsel; James Redstone, Professional Staff 
Member; Mandy Schaumburg, Education Deputy Director and Senior 
Counsel; Alissa Strawcutter, Deputy Clerk; Leslie Tatum, 
Professional Staff Member; Sheariah Yousefi, Legislative 
Assistant; Tylease Alli, Minority Clerk/Intern and Fellow 
Coordinator; Jacque Chevalier, Minority Deputy Education Policy 
Director; Denise Forte, Minority Staff Director; Mishawn 
Freeman, Minority Staff Assistant; and Christian Haines, 
Minority Education Policy Counsel.
    Chairman Rokita. Thank you for reminding me that I am not 
loud, you are the first one in a long time that has said that 
to me.
    A quorum being present, the Subcommittee on Early 
Childhood, Elementary, and Secondary Education will come to 
order. Good morning, and welcome to today's hearing.
    Like much of the work we do as members of the Education and 
the Workforce Committee, we are here to discuss an effort that 
is all about opportunity and putting individuals on a path that 
will actually help them earn success in life. In this case, 
that effort is reforming the juvenile justice system.
    Of course, juvenile justice reform is not just a concern 
for those of us here today. It is something that has long been 
a national priority.
    Through their juvenile justice systems, State and local 
leaders are working to promote communities that are safe. 
Communities that help children learn and grow into productive 
members of society. Communities that provide opportunities for 
all of our children, regardless of their background or past 
mistakes, to pursue their dreams and achieve their goals.
    For decades, the Juvenile Justice and Delinquency 
Prevention Act has coordinated Federal resources to help 
improve those State juvenile justice systems.
    The law primarily focuses on education and rehabilitation 
to support efforts keeping at-risk youth out of the system, as 
well as efforts providing juvenile offenders already in the 
system the second chance they need to move forward with their 
lives in more positive ways.
    Today, more than 1 million young men and women across the 
country are involved in the juvenile justice system. That 
includes children as young as 10, all the way to the cusp of 
adulthood, a wide swath.
    One million. That is a noteworthy number on its own, but it 
does not even include the countless others who are at risk of 
becoming involved in the system because of circumstances such 
as poverty, homelessness, or other difficulties at home.
    That statistic provides an idea of the size and scope of 
the system, but it is even more important to understand what 
being a part of the juvenile justice system actually means for 
each of those 2 million kids.
    In many cases, it means being at a disadvantage, not fully 
understanding what the potential of a future holds, and not 
even realizing that opportunities exist to turn things around.
    In fact, youth who have been incarcerated are 26 percent 
less likely to graduate from high school than their peers, and 
26 percent more likely to engage in other unlawful activity and 
return to the system as adults.
    We, as a society, have to help children avoid becoming one 
of those statistics, and we can accomplish that by helping some 
stay out of the system altogether and by helping others come 
out of the system with the opportunities and the motivation 
they need to chart a better course for themselves.
    Given the social and economic challenges facing our 
country, that is no small feat. However, through a 
collaborative effort among parents, teachers, and local 
community members, it can be done.
    That is why we are here today, to discuss our role in that 
collaborative effort and to begin considering what steps 
Congress can take to help State and local leaders better serve 
vulnerable youth.
    Last year, we advanced a number of bipartisan reforms that 
I am particularly proud of, to provide State and local leaders 
the flexibility they need to meet the needs of youth in their 
cities and towns, focus on proven strategies, and improve 
accountability and oversight, both to help kids succeed and 
protect taxpayers, which is also important.
    Ultimately, these reforms would set kids up for long-term 
success, helping them gain the skills they need to become 
productive adults and promoting opportunities for them to 
achieve success. I am certain those common-sense reforms will 
help guide the work ahead as we renew our effort to improve the 
juvenile justice system.
    As a father, I want my children to have every opportunity 
they need to succeed in life, and I work very hard to ensure 
they do. I also work hard to ensure they understand it is their 
responsibility to seize those opportunities. Unfortunately, not 
all children are in the same position, and those are the kids 
we are here to help today. I look forward to continuing our 
work to provide them with the hope for a brighter future.
    With that, I would like to recognize my friend, the ranking 
member, Congressman Polis, for his opening statement.
    [The statement of Mr. Rokita follows:]

Prepared Statement of Hon. Todd Rokita, Chairman, Subcommittee on Early 
             Childhood, Elementary, and Secondary Education

    Good morning and welcome to today's hearing. Like much of the work 
we do as members of the Education and the Workforce Committee, we're 
here to discuss an effort that is all about opportunity and putting 
individuals on a path that will help them earn success in life. In this 
case, that effort is reforming the juvenile justice system.
    Of course, juvenile justice reform isn't just a concern for those 
of us here today. It's something that has long been a national 
priority. Through their juvenile justice systems, state and local 
leaders are working to promote communities that are safe. Communities 
that help children learn and grow into productive members of society. 
Communities that provide opportunities for all children--regardless of 
their background or past mistakes--to pursue their dreams and achieve 
their goals.
    For decades, the Juvenile Justice and Delinquency Prevention Act 
has coordinated federal resources to help improve those state juvenile 
justice systems. The law primarily focuses on education and 
rehabilitation to support efforts keeping at-risk youth out of the 
system, as well as efforts providing juvenile offenders already in the 
system the second chance they need to move forward with their lives in 
positive ways.
    Today, more than one million young men and women across the country 
are involved in the juvenile justice system. That includes children as 
young as ten all the way to those on the cusp of adulthood. That's a 
noteworthy number on its own, but it doesn't even include the countless 
others who are at risk of becoming involved in the system because of 
circumstances such as poverty, homelessness, or difficulties at home.
    That statistic provides an idea of the size and scope of the 
juvenile justice system, but it's even more important to understand 
what being a part of the juvenile justice system actually means for 
each of those two million kids. In many cases, it means being at a 
disadvantage, not fully understanding what potential the future holds, 
and not realizing that opportunities exist to turn things around.
    In fact, youth who have been incarcerated are 26 percent less 
likely to graduate from high school than their peers and 26 percent 
more likely to engage in other unlawful activity and return to jail as 
adults.
    We, as a society, have to help children avoid becoming one of those 
statistics, and we can accomplish that by helping some stay out of the 
system all together and by helping others come out of the system with 
the opportunities and the motivation they need to chart a better course 
for themselves. Given the social and economic challenges facing our 
country, that's no small feat. However--through a collaborative effort 
among parents, teachers, and local community members--it can be done.
    That's why we are here today--to discuss our role in that 
collaborative effort and to begin considering what steps Congress can 
take to help state and local leaders better serve vulnerable youth in 
their communities.
    Last year, we advanced a number of bipartisan reforms to provide 
state and local leaders the flexibility they need to meet the needs of 
youth in their cities and towns, focus on proven strategies, and 
improve accountability and oversight both to help kids succeed and 
protect taxpayers. Ultimately, these reforms would set kids up for 
long-term success, helping them gain the skills they need to become 
productive adults and promoting opportunities for them to achieve 
success throughout their lives. I'm certain those commonsense reforms 
will help guide the work ahead as we renew our effort to improve the 
juvenile justice system.
    As a father, I want my children to have every opportunity they need 
to succeed in life, and I work very hard to ensure they do. I also work 
hard to ensure they understand it's their responsibility to seize those 
opportunities. Unfortunately, not all children are in the same 
position, and those are the kids we are here for today. I look forward 
to continuing our work to provide them the hope of a brighter future.
    With that, I will now recognize the ranking member, Congressman 
Polis, for his opening remarks.
                                 ______
                                 
    Mr. Polis. Thank you, Chairman Rokita, for organizing this 
bipartisan hearing today. I want to thank our terrific 
witnesses. I am especially honored to have Ms. Williams from 
Colorado to talk about my home State's efforts to engage in 
meaningful prevention and intervention services.
    While Congress is often portrayed as hyperpartisan, where 
many issues divide along party lines, juvenile justice is among 
the many issues where both parties have traditionally been able 
to work together and develop policies with broad stakeholder 
support.
    Just last Congress, our committee reported out a bill to 
reauthorize the Juvenile Justice and Delinquency Prevention 
Act, or JJDPA, and that bill went on to pass the whole House 
382 to 29. That was the first time in the last 15 years either 
chamber of Congress got a bill to authorize the Juvenile 
Justice and Delinquency Prevention Act on the floor.
    Unfortunately, it was not able to make it across the finish 
line in the Senate. This session I hope we can come together 
again, get a vehicle to authorize the Juvenile Justice and 
Delinquency Prevention Act out of the committee, out of the 
House, out of the Senate, to the President's desk for 
signature, to make a difference for children.
    It has been over 100 years since we established a juvenile 
court system in our country. The juvenile system was designed 
based on the idea that children were not merely smaller 
versions of adults, and our response to their misconduct should 
be aimed at intervention and rehabilitation as opposed to a 
more typical criminal justice response.
    Over the 20th century, State juvenile justice systems 
evolved separately and in different ways without significant 
Federal oversight. In time, many actually came to resemble 
adult systems with little focus on children or rehabilitation.
    In response, Congress passed the Juvenile Justice and 
Delinquency Prevention Act in 1974. It created important 
guardrails that protect children in the juvenile justice 
system.
    The Juvenile Justice and Delinquency Prevention Act has 
three main components. First, to establish core requirements 
that States must adhere to regarding the treatment of children 
in the juvenile justice system. It authorized formula and 
competitive grants to help States run their juvenile justice 
systems in line with the requirements and provide delinquency 
prevention programs. Finally, it created a Federal office, the 
Office of Juvenile Justice and Delinquency Prevention, to 
oversee juvenile justice programs.
    Since its adoption in 1974, the Juvenile Justice and 
Delinquency Prevention Act has truly helped improve treatment 
for juveniles in the justice system, and helped reduce 
disparities in treatments across the States.
    A reauthorization of the Juvenile Justice and Delinquency 
Prevention Act would create an opportunity to codify best 
practices that have been engaged in by various States over the 
last 15 years, including important elements of the bill, like 
using evidence-based practices, unique needs of girls in the 
juvenile justice system, implementation of trauma-informed 
care, cost-effective alternatives to incarceration that don't 
harm public safety, and efforts to end the school-to-prison 
pipeline by allowing school discipline policies with the 
juvenile justice system.
    In my own State of Colorado, we have made progress by 
reforming the procedures that prosecutors use to charge 
juveniles in court, and just this year, we were able to 
authorize retroactive elimination of juvenile life without 
parole for many young offenders.
    While I think there are some things to celebrate, there are 
also serious issues we need to address in both the juvenile 
justice system and discipline procedures used within our public 
education system.
    One of those is the continued use of corporal punishment, 
seclusion, and restraints in both our education and juvenile 
justice systems. There is no logical reason that in 2017 
children can go to school in this country and still be subject 
to physical punishments, but in 19 States, that is still the 
case. Research shows us that corporal punishment is used 
disproportionately against minority students and students with 
disabilities.
    Former Education Secretary John King, in November 2016, 
sent a letter to State governors and chief school officers 
calling for the elimination of corporal punishment, suggesting 
that in some States the punishment could legally be classified 
as assault or battery.
    At this time, I would like to introduce the letter from 
Secretary King into the record.
    Chairman Rokita. Without objection.
    Mr. Polis. Again, this Congress, my good friend, Alcee 
Hastings of Florida, introduced bipartisan legislation to 
outlaw corporal punishment in U.S. schools. Just like the core 
protections of the Juvenile Justice and Delinquency Prevention 
Act, we need to enact a Federal protection for students in 
schools and in juvenile facilities from physical abuse.
    In closing, I look forward to hearing from our witnesses 
and determining how we can support our work here in Congress to 
get to the point where we can reauthorize the Juvenile Justice 
and Delinquency Prevention Act and get it across the finish 
line.
    Thank you, Mr. Chairman, and I yield back.
    [The statement Mr. Polis follows:]

Prepared Statement of Hon. Jared Polis, Ranking Member, Subcommittee on 
          Early Childhood, Elementary, and Secondary Education

    Thank you Chairman Rokita, for organizing this hearing this 
morning, and I'd like to thank the witnesses for agreeing to testify 
today. I'm especially honored to have Ms. Williams on the panel to 
speak about the work being done in our home state of Colorado to 
provide meaningful prevention and intervention services to Colorado's 
juveniles.
    While Congress is often seen as a hyper-partisan setting where many 
issues are divided along party lines, juvenile justice is an issue 
where both parties have traditionally worked together and developed 
policies with broad support. Just last Congress, our Committee reported 
out a bill to reauthorize the Juvenile Justice and Delinquency 
Prevention Act or JJDPA, and that bill went on to pass the whole House 
by a vote of 38229. That was the first time in the last 15 years that 
either chamber of Congress got a bill to reauthorize JJDPA passed on 
their floor. In the spirit with which we came together to accomplish 
that last year, I hope that we can come together again this year and 
get a vehicle to reauthorize JJDPA out of our committee, passed out of 
both chambers, and onto the President's desk for signature.
    It has been over 100 years since we established a juvenile court 
system in America. The juvenile system was designed based on the idea 
that children were not merely small adults, and our response to their 
misconduct should be aimed at intervention and rehabilitation as 
opposed to a criminal justice response. Over the 20th century, state 
juvenile justice systems evolved separately and without federal 
oversight. In time, many came to resemble adult systems, with little 
focus on children and their rehabilitation.
    In response, Congress passed the Juvenile Justice Delinquency and 
Prevention Act in 1974. It creates the federal guardrails that protect 
our children in the juvenile justice systems in each state. JJDPA has 3 
main components. The act first established core requirements and other 
mandates states must adhere to regarding the treatment of children in 
the juvenile justice system. It authorized formula and competitive 
grants to help states run their juvenile justice systems in line with 
the federal requirements and provide delinquency prevention programs. 
Finally, it created the Federal Office of Juvenile Justice Delinquency 
Prevention (OJJDP) to oversee juvenile justice programs.
    Since its adoption in 1974, JJDPA has improved treatment overall 
for juveniles in the justice system and helped reduce disparities in 
treatment across states. A reauthorization of JJDPA creates an 
opportunity to codify best practices that have emerged in various 
states over the past 15 years including, the use of evidence-based 
practices, the unique needs of girls in the juvenile justice system, 
the implementation of trauma-informed care, cost-effective alternatives 
to incarceration that do not harm public safety, and efforts to end the 
``School to Prison'' pipeline by aligning school discipline policies 
and juvenile justice systems.
    In my home state of Colorado we have made progress by reforming the 
procedures prosecutors use to charge juveniles in adult court. And just 
this year we were able to authorize retroactive elimination of juvenile 
life without parole for many young offenders.
    And while I think that there are many things to celebrate, there 
are still some serious issues that we need to address in both the 
juvenile justice system and discipline procedures in our education 
system. One of those is the continued use of corporal punishment, 
seclusion and restraints in both our educational and juvenile justice 
systems.
    There is no logical reason that in 2017, children can go to school 
in this country and be subject to physical punishments. But in 19 
states that is still the case. Research shows us that corporal 
punishment is used disproportionately against minority students and 
students with disabilities. Former Education Secretary John King, in a 
November 2016 letter to state governors and chief school officers, 
called for the elimination of the practice, suggesting that in some 
states, the punishment could be legally classified as assault or 
battery.
    [Committee staff have a copy of the letter to introduce into the 
record.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    And again this Congress, my good friend Alcee Hastings of Florida, 
has introduced bipartisan legislation to outlaw the practice in US 
schools. Just like the core protections of JJDPA, we need to enact a 
federal floor of protection for students in schools and in juvenile 
facilities.
    So in closing, I look forward to hearing from our witnesses and 
determining how we can support their work here in Congress and get to 
the point where children in every juvenile justice system have strong 
protections and the resources they need to turn their life around. 
Thank you Mr. Chairman, and I yield back.
                                 ______
                                 
    Chairman Rokita. Thank you, Mr. Polis. Pursuant to 
Committee Rule 7(c), all members will be permitted to submit 
written statements to be included in the permanent hearing 
record, and without objection, the hearing record will remain 
open for 14 days to allow such statements and other extraneous 
material referenced during the hearing to be submitted for the 
record.
    I will now turn to the introduction of our distinguished 
witnesses, and I recognize Mr. Polis for the first 
introduction.
    Mr. Polis. Thank you. I am very honored to have Ms. Meg 
Williams from Colorado. She serves as the manager of the Office 
of Adult and Juvenile Justice Assistance within our Division of 
Criminal Justice at the Colorado Department of Public Safety.
    Ms. Williams is responsible for the management of Federal 
and State programs that assist with and improve the criminal 
and juvenile justice systems. Ms. Williams has over 25 years of 
experience in social services, both in adult and juvenile 
justice arenas, in both Ohio and Colorado, and we are thrilled 
to welcome her to the committee today.
    Chairman Rokita. Thank you, Mr. Polis. Let me introduce a 
dear friend of mine who is a good man from a community that I 
am very fond of, and that is Chief Patrick J. Flannelly.
    He serves as the chief of police of Lafayette, Indiana, and 
is the at-large director for the Indiana Association of Chiefs 
of Police. Previous to his role as chief of police, Chief 
Flannelly served on the Gang Response Investigative Team with 
the Lafayette Police Department.
    We also have joining us today Judge Denise Navarre Cubbon, 
who serves as the Lucas County administrative judge in Lucas 
County, Ohio.
    In addition to this position, Judge Cubbon also serves on a 
number of committees and boards, including the National Council 
of Juvenile and Family Court Judges' Board of Trustees, and the 
Supreme Court of Ohio Advisory Committee on Children, Families, 
and the Courts.
    Previous to this, Judge Cubbon served as the Lucas County 
assistant prosecuting attorney where she was assigned to the 
Juvenile Division, Criminal Division, and Senior Protection 
Unit.
    Finally, Mr. Matt Reed serves as the executive director of 
Safe Place Services for the YMCA in Louisville, Kentucky. In 
this position, Mr. Reed oversees the only place in the region 
where teens and their families can obtain immediate and free 
shelter and counseling to support individual circumstances that 
arise from being homeless, running away from home, and being in 
danger, such as in situations dealing with abuse or neglect. 
Welcome, Mr. Reed.
    I will now ask our witnesses to raise your right hand.
    [Witnesses sworn.]
    Chairman Rokita. Let the record reflect that all witnesses 
answered in the affirmative. Thank you.
    Before I recognize you to provide your testimony, let me 
briefly explain our lighting system. I do this for us up here 
as much as for you. You each have 5 minutes to present your 
testimony.
    When you begin, the light in front of you will be green. 
With 1 minute left, it will be yellow, and when it is red, you 
will be expected to have your comments wrapped up or you will 
have to wrap them up. At that point, members will each have 5 
minutes to ask their questions.
    With that, Ms. Williams, you are recognized for 5 minutes.

    TESTIMONY OF MEG WILLIAMS, MANAGER, OFFICE OF ADULT AND 
  JUVENILE JUSTICE ASSISTANCE, DIVISION OF CRIMINAL JUSTICE, 
              COLORADO DEPARTMENT OF PUBLIC SAFETY

    Ms. Williams. Thank you very much, Chairman Rokita and 
Ranking Member Polis. I am very honored to be asked to be here 
today, and I want to provide you information regarding juvenile 
justice, and to describe partnerships in place with States in 
addressing critical concerns.
    Again, my name is Meg Williams. I am here on behalf of the 
Department of Public Safety in Colorado where I serve as the 
designated juvenile justice specialist, and just so that you 
know, all of you within States have someone similar to me in my 
position in your State. Get to know them if you want to learn 
more about what your State is doing.
    In Colorado, not unlike other States, we continue to 
grapple with juvenile crime and the needs of the youth that 
find themselves caught in the justice system. Research has 
found that these juveniles come to us with profound needs due 
to histories of abuse or neglect, trauma, and poverty, some of 
the things you said this morning in your introduction. They 
have educational disabilities and mental health and substance 
abuse issues.
    In Colorado, the population of youth that have penetrated 
to the highest level of services, which is commitment, and that 
is akin to adult prison, are predominately male, and an average 
of almost 17 years old. They have an extensive history of prior 
out-of-home placement, often due to prior social service 
involvement, and they are assessed as needing treatment level 
substance abuse and mental health services.
    How does the Federal Government factor into our work at the 
State? The leadership of the Federal Government through the 
JJDPA--thank you so much for trying to once again pass it--
provides a roadmap for States to not only serve and protect 
juveniles who come into contact with our justice system, but 
also in preventing future victimization and upholding community 
and public safety. All are equally important.
    The act also established the Office of Juvenile Justice and 
Delinquency Prevention, and they serve as a partner to the 
States. They provide leadership through research evaluation. 
They set rules and regulations regarding the care and custody 
of juveniles, and they provide training and technical 
assistance, as well as necessary funding.
    When States agree to participate in the act, we agree to 
adhere to those four core requirements that you spoke about, 
about the appropriate holding of juveniles, and also to address 
disproportionate minority contact.
    We are also required to establish a State advisory group, 
which is comprised of government, nongovernment experts, 
reflected by the needs of the kids who come into our justice 
system, so that can include the courts, education, social 
services, and mental health.
    Also, we have a requirement of a minimum of one-fifth 
youth. Let me tell you, our youth are amazing in guiding us at 
the State level. We are also required to develop a plan every 3 
years, and through that, we develop it through looking at data. 
What do the kids look like? What are their needs? What is the 
availability of the services that we have identified that they 
need to address their issues and what funding is available, and 
how can we best use our Federal dollars to fill the gaps?
    Although we have seen many improvements in our field, our 
work is not done. Our Nation still needs to have a concerted 
focus on juvenile justice, as the needs of youth appear to be 
more difficult to address.
    We need continued laser vision on addressing juvenile 
justice through the lens of what truly works, grounded in what 
we know about adolescent brain development, and just the period 
of adolescence in which we know kids have a much less developed 
capacity to self-regulate themselves. Anyone who is a parent 
remembers this.
    They are more easily influenced developmentally to external 
influences, peer pressure, and other perceived incentives, 
which are actually sometimes bad incentives for kids, and have 
less ability to make judgments and decisions that are really 
future-oriented. All of this contributes to them potentially 
engaging in risky behavior, and it leads to a higher 
probability of negative and harmful consequences.
    We also know that economically disadvantaged minorities are 
disproportionately represented in our justice system. We are 
now more fully recognizing the prevalence of mental health, 
substance use and abuse, history of child abuse and neglect, 
and trauma to those youths.
    Knowing these facts and transforming our systems in concert 
with these continues to be a challenge. We need your support, 
your assistance, and your partnership in continuing to hold our 
youth accountable for their behaviors, but by also then working 
towards reduced future victimization and increased public 
safety, but we need to do it in ways that recognize and respond 
to the needs of these youth.
    We need you to understand there are other Federal agencies 
that should be involved in juvenile justice and delinquency 
prevention. It is not just a justice issue. It truly isn't. We 
need others from Health and Mental Services, Substance Abuse 
and Mental Health Services, SAMHSA, Workforce Development--
these kids are going to age into becoming adults--just to name 
a few.
    Those partnerships remain vital to our collective success 
as a Nation and to us as States, but, more importantly, to the 
youth as individuals.
    Thank you very much.
    [The testimony of Ms. Williams follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Chairman Rokita. Thank you, Ms. Williams. Chief, you are 
recognized for 5 minutes.

 TESTIMONY OF PATRICK J. FLANNELLY, CHIEF OF POLICE, LAFAYETTE 
                       POLICE DEPARTMENT

    Chief Flannelly. Chairman Rokita, Ranking Member Polis, and 
all the members of the House Education and Workforce 
Subcommittee on Early Childhood, Elementary, and Secondary 
Education, I want to thank you for the opportunity to be here. 
It is my pleasure. I am honored to be here.
    I serve as the chief of police for the Lafayette, Indiana 
Police Department, and also at-large director for our State 
Chiefs Association.
    Additionally, I am a member of Fight Crime: Invest in Kids, 
a national organization of chiefs of police, sheriffs, 
prosecutors, and violence survivors. We have over 5,000 members 
nationwide and have at least one member represented in 97 
percent of the congressional districts.
    I bring this experience to speak about juvenile justice 
reforms my State has adopted, the positive impact those reforms 
have had on public safety, and how Congress can support the 
efforts by reauthorizing the JJDPA.
    Nationwide, juvenile recidivism remains a serious problem. 
For far too many young people, their first arrest is only the 
beginning of their run-ins with the law. Our studies have shown 
that if a youth 14 years old or younger becomes a second-time 
offender, their likelihood of future brushes with law 
enforcement spikes to 77 percent. Nationwide, 40 percent of 
young people who come in contact with the juvenile court will 
come before the court at least one more time.
    This cycle damages public safety, drains law enforcement 
resources, and does not put at-risk youth back on the right 
track. More needs to be done to ensure that if a youth offends 
and has their first contact with the juvenile justice system, 
it will be their last.
    Recognizing this challenge, Indiana has undergone reforms 
at the State level and at the county level to better address 
juvenile delinquency.
    In 2006, Marion County joined the Juvenile Detention 
Alternatives Initiative, or JDAI. The strategy reprioritizes 
existing funding away from detention facilities and into 
community-based alternative programs. In 2009, my county of 
Tippecanoe joined the initiative. In 2013, these reforms went 
statewide.
    Research has shown that effective community-based 
alternatives to detention for low to moderate risk youth can 
significantly reduce the likelihood that youth will get into 
trouble again.
    These intervention programs engage family, coaching parents 
and youth in the skills they will need to change a young 
person's behavior.
    This is an important part of fixing the problem, since many 
youths we see are following in the footsteps of family members 
or peers who have previously gone down the wrong road.
    Two of the anti-recidivism programs at work in my State are 
functional family therapy and multisystemic therapy. Randomized 
control trials have found that these programs can cut youth 
recidivism by 50 to 62 percent.
    It is important to note that confinement may be necessary 
for some juveniles with a very high risk assessment or due to 
the severity of the offense. However, confinement should be 
reserved for only that small segment of juveniles who pose a 
threat to public safety.
    For the majority of juvenile offenders, the more effective 
approach, and cost-effective, involves community-based 
initiatives that we have described.
    I have seen the positive effects of these juvenile justice 
reforms firsthand. After starting the JDAI in Tippecanoe 
County, we were able to cut juvenile arrests from just over 
1,600 in 2008 to 755 last year. That is a reduction of 891 
arrests in just over 7 years.
    Not only does that save us the costs associated with each 
arrest, we also canceled plans to build a 32-bed security 
detention facility at an anticipated cost of $22 million. Using 
methods such as MST, FFT, and ART programs, beginning in 2008 
and through the end of 2016, 427 youth have successfully 
completed the program, and to date, 51 percent have yet to 
recidivate.
    In early 2014, we implemented two programs, Policing the 
Teen Brain and Juvenile Justice Jeopardy, as strategies to 
enhance how youth approach officers and vice versa. This work 
is paying significant dividends.
    In the 2 subsequent years, we were able to reduce the 
number of arrests involving juveniles that involved battery on 
law enforcement, resisting law enforcement, and disorderly 
conduct by 31 percent. By teaching our officers and youth more 
productive and meaningful ways to interact, we are reducing 
conflict and improving relationships. It is our goal that every 
police officer in the county and eventually the State completes 
this course.
    While States have led the way in juvenile justice reform, 
we cannot do it alone. JJDPA provides critical grants to States 
that help support our juvenile justice systems, including these 
alternatives to detention.
    Reauthorization to update this law is long overdue, to 
ensure the best outcomes for the communities we serve. I was 
excited to see the committee introduce the bill last year to 
reauthorize the JJDPA and the Supporting Youth Opportunity and 
Preventing Delinquency Act. That bipartisan bill made important 
updates to Federal law that would support the advancements made 
in Indiana and many other States.
    The bill also emphasizes continuing programs that help kids 
from involvement in crime in the first place, including 
evidence-based monitoring or mentoring and voluntary home 
visiting. Many States have expanded the use of those programs 
in recent years as well, and support through a Federal 
reauthorization would help continue this work.
    I appreciate this committee's work on behalf of this 
important issue and was encouraged to see such a strong 
bipartisan vote to pass it in the House of Representatives. I 
hope a similar reauthorization will make it into law this 
Congress. I am glad to support you in this effort, and happy to 
answer any questions you may have.
    [The testimony of Chief Flannelly follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
       
    Chairman Rokita. Thank you, Chief. Judge, you are 
recognized for 5 minutes.

       TESTIMONY OF THE HONORABLE DENISE NAVARRE CUBBON, 
      ADMINISTRATIVE JUDGE, LUCAS COUNTY JUVENILE DIVISION

    Judge Cubbon. Good morning. Thank you. Chairwoman Foxx and 
Ranking Member Scott, Subcommittee Chair Rokita, and 
Subcommittee Ranking Member Polis, and members of the 
committee, thank you so much for inviting me to come to talk to 
you about the children that I see every day and other judges 
see in their courtrooms and their families, addressing issues 
very personal to their families, and very important for us to 
assist them in making important changes in their lives.
    I am not going to introduce myself because thank you, you 
have done that for me. I can tell you that in my years of 
experience in juvenile justice it became very apparent, 
especially when I took the bench 12 years ago, that our efforts 
in the 1990s to keep communities safe, although it was well-
intentioned, maybe had a lot of unintended outcomes.
    Walking into my courtroom and other courtrooms across the 
country, looking at the children appearing before me, it was 
very clear we had a disproportionate minority contact. Lots of 
unnecessary use of incarceration to control behavior without 
services accompanying that.
    Programs intended to keep children out of the community 
became programs that were the stepping stone with non-
compliance, putting them into the juvenile justice system.
    So I say all of that to say that we are an enlightened body 
now. We are a community that understands the value of research. 
We are the community that understands the value of brain 
science, looking at adolescents, where they come from, looking 
at best practices, looking for technical assistance to assist 
each and every one of us as judges in our respective 
communities to help families and children make changes.
    Ironically enough, I took a train down here today. I spent 
a few days in New York City at a meeting with over 400 judges 
and professionals in the area of juvenile justice, a meeting 
where we had an opportunity to engage in judicial and 
professional education looking at juvenile justice, as a matter 
of fact.
    I can tell you there were probably judges and professionals 
from just about every one of your States that were there. I 
know States sitting next to me right now were there for sure.
    It is so exciting to think that you are continuing to carry 
the torch for reauthorization of the Juvenile Justice and 
Delinquency Prevention Act, because we spent so much time while 
we were there talking about programs, research, development in 
the area of juvenile justice to address those issues that are 
evidence-based, best practices, innovative, to address the 
needs of the particular children that we serve every day, and 
to be able to develop programming to address the special needs 
of some of those particular subgroups that you talk about, like 
girls, mentally ill children, substance abuse issues impacting 
development, looking for great programming to assist them.
    Judges, we have a unique perspective. We sit in the 
courtroom and we see the families, we hear the stories, and we 
know how important it is to have all these programs and 
opportunities that my colleagues in this room are all obviously 
agreeing with.
    Juvenile justice reform is on its way. The children that we 
see in our courtrooms, many of which should not be in courts, 
they have the opportunity through diversion programs to correct 
those issues that brought them to the court's attention. We 
have children on the other end, those children that have some 
serious behavior issues that are compromising public safety, 
and a secure facility for them is important, but is meaningless 
unless they have specific programming to address their needs.
    All those kids in between that we see regularly, with lots 
of other issues than just their presenting behavior, they may 
have trauma. Many children have trauma today; we know that from 
the work of OJJDP: mental health issues, developmental delays, 
special educational needs, children who are running away from 
their homes because of abuse and neglect, homelessness. We can 
go on and on and on. Those are the issues that we the judges 
want to address with programming so we can help these kids make 
important changes in their lives so they can be productive.
    I hope you ask me some questions about things that are 
going on in my community, and any other questions that can help 
you in doing your important work. Thank you.
    [The testimony of Judge Cubbon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      Chairman Rokita. Thank you, Judge. You know, I have to say 
for the record that I am disappointed. I was hoping that you 
would help me meet a milestone today. As a former practicing 
trial attorney, I was waiting for the time in my life where I 
could tell a judge that she was out of time and she needed to 
be quiet. I am going to have to wait.
    Thank you, seriously, for your testimony. It was 
enlightening. I appreciate it, everyone so far.
    Mr. Reed, you are recognized for 5 minutes.

  TESTIMONY OF STEPHEN MATTHEW REED, EXECUTIVE DIRECTOR, SAFE 
           PLACE SERVICES, YMCA OF GREATER LOUISVILLE

    Mr. Reed. Good morning. Thank you, Chairman Rokita, Ranking 
Member Polis, and all members of the Subcommittee on Early 
Childhood, Elementary, and Secondary Education for the 
opportunity to testify at today's hearing.
    My name is Matt Reed. I currently serve as the executive 
director of YMCA's Safe Place Services in Louisville, Kentucky. 
I have had the privilege to work with at-risk youth for over 20 
years. Our programs at Safe Place provide judicial and law 
enforcement partners with effective and evidence-based 
alternatives and have tangible and measurable results in 
keeping kids out of the justice system.
    Since 2005, Safe Place has operated a Juvenile Field 
Release Program. The Field Release Program is a partnership 
with law enforcement, juvenile court, and our youth detention 
center. The goal of this program is to provide law enforcement 
a safe release option as an alternative to detention when they 
encounter a juvenile who has committed a misdemeanor or 
nondetainable criminal offense.
    Since full inception, approximately 1,900 juveniles have 
been served by Field Release, helping decrease overall youth 
detention numbers by 60 percent. However, the most significant 
impact of the Field Release Program has been the number of 
youth who gain immediate access to in-house or community 
partner referrals. Fifteen percent of our Field Release youth 
are placed directly in YMCA's Shelter House Program, which is 
our 24-hour residential program for 12- to 17-year-olds. They 
find immediate safety and support.
    Over 76 percent overall of our Field Release youth leave 
our care with either an in-house or community partner service 
referral in place, such as drug treatment, mental health 
therapy, or a mental health evaluation.
    During 2010 and the 2011 school year, Safe Place also 
successfully operated a truancy diversion pilot project in 
response to the increasing number of youth missing more than 10 
days of school per year. The model program served approximately 
40 youth per year. Most entered the program having missed 75 or 
more days of school and were experiencing other challenges such 
as low academic achievement, substance abuse in the home, 
poverty, and unstable housing.
    Before funding was cut at the State level in 2012, this 
program cut truancy rates by 73 percent, and successfully 
diverted 67 youths from commitment to State's custody.
    In 2016, most recently, we have received a Title II grant 
through the Kentucky Justice and Public Safety Cabinet. Funding 
for this grant was provided by the U.S. Department of Justice's 
Office of Juvenile Justice Delinquency and Prevention.
    We are very excited about this opportunity, and it is 
actually called the Opportunity Program. The Opportunity 
Program is designed to engage at-risk youth and first-time 
nonserious offenders, ages 10 to 14, in programs that reduce 
their rate of entry into the juvenile justice system.
    Our program has three service components. First, it has a 
mock truancy court for our middle school youth. We have an 
early elementary school intervention component for children who 
have at least one parent incarcerated. Throughout the program 
we provide intensive case management services through our pods 
of 10 weeks, as we work with the kids and families.
    The results are very positive so far. Forty-eight kids have 
been served since launching in October. Of those, 46 have no 
new involvement with juvenile court, and 65 percent have no 
additional unexcused absences from school.
    With permission, I would like to conclude my remarks by 
sharing a success story that best captures the value of our 
community-based programs.
    This is Cassidy's story. At age 12, Cassidy was living a 
life that no child should ever have to endure. First introduced 
to drugs at the age of 12, Cassidy lived in what is often known 
as a trap house, a haven for drug dealers and buyers, 
constantly streaming in and out at all hours.
    On days Cassidy actually attended school, her experience 
was very difficult when she came home. She would find one drug 
dealer in the living room, one in the kitchen, and another 
propped up in the dining room. There were guns, pot, powders of 
all kinds lining the tables. Smoke was everywhere and noise was 
everywhere, but her mother was nowhere to be found.
    Sometimes transactions even occurred in her bedroom. Those 
were some of the scariest for a 12-year-old girl.
    Cassidy routinely missed 40 to 70 days of school during 
middle school and 92 days of school her freshman year. In the 
summer of 2012, Cassidy's life would change forever. After 
being arrested for possession of a handgun and drug 
paraphernalia, her mom refused to give up the dealers and chose 
to pin it on Cassidy, but this turned out to be the best part 
of this story because it turned things around for Cassidy.
    Those charges were straightened out, and Cassidy came to 
our shelter program. After receiving counseling and being 
placed with her grandparents, Cassidy went on to do wonderful 
in school.
    Because of the support of our case manager, Linda, her word 
was never broken to Cassidy, and after completing tutoring and 
counseling classes, Cassidy graduated high school on time, and 
eventually sat for the ACT. Thinking that she would not score 
well, Cassidy actually scored a 24 on her ACT, still a 
sophomore in high school. Today, Cassidy is at the University 
of Louisville, maintains steady employment, and recently became 
a mom.
    We are very proud of her success and the success of this 
program.
    Thank you for the opportunity to speak with you today. This 
important and critical reform work is needed, and your 
diligence and dedication is greatly appreciated by all of us 
across the country.
    [The testimony of Mr. Reed follows:]
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
     
    Chairman Rokita. Thank you, Mr. Reed. I am going to hold on 
my questions as chair and recognize the chairwoman of the full 
committee, Dr. Foxx, for 5 minutes of questioning.
    Mrs. Foxx. Thank you, Chairman Rokita, and thanks to all 
the witnesses who are here today. Thank you very much for being 
here.
    Chief Flannelly, you have referenced alternatives to 
incarceration your department is involved in to help at-risk 
and committed youth. Can you discuss the importance of service 
options to ensure a child is placed in the best program to 
prevent him or her from being a repeat offender?
    Chief Flannelly. Thank you, ma'am. Yes. One of the 
processes we have in place in Tippecanoe County, and this was 
the pilot that started in 2009, when a young person would be 
arrested, whether it be for a status offense or any offense, 
they were brought into an intake facility.
    We had specially trained personnel in that intake facility 
that would run them through some questionaires. We can provide 
copies of what those questionnaires look like.
    You get an understanding of what is the core issue with the 
individual that you are dealing with right now. A lot of times 
what we see out on the street in law enforcement are really 
just the symptoms of much larger problems.
    By being able to identify what some of those core issues 
are, we can direct them into the appropriate services at a much 
faster rate. The sooner we get them into the right services, 
the better outcomes we get. The numbers have really just been 
astounding over the last few years.
    Mrs. Foxx. Thank you very much. Ms. Williams, in order to 
ensure that taxpayer funds are well spent, it is important to 
measure accurately the effectiveness of programs. Are there 
particular challenges associated with measuring the 
effectiveness of juvenile justice programs?
    Ms. Williams. Thank you, Representative Foxx. There are 
always challenges in being able to evaluate the effectiveness 
of programs. To do a true evaluation is actually a very 
expensive process, because you need to have control groups to 
actually do the comparison, to be able to attribute change to a 
particular intervention.
    What we do in Colorado is we are very strict about making 
sure that they are collecting data, short of being able to do a 
true scientifically based evaluation. Then we are able to 
collect data. We really take a look at it on a quarterly basis 
to make sure that they are serving the numbers of kids and we 
are beginning to see the outcomes.
    The other thing we do is when there are particular programs 
that show promise, we will use our Federal funds that Congress 
allocates to us in Title II to conduct more in-depth 
evaluations, that we would otherwise not be able to do.
    I think it is incredibly valuable to be able to fund 
programs, and we will only fund programs where there is some 
evidence to suggest that they work, and they can show us 
studies that say this is based on sound science. Then we can 
determine whether or not we are beginning to see such results 
and then determine if we want to invest in an even further more 
scientifically based evaluation.
    Mrs. Foxx. I am very happy to hear that. Several of you 
have talked about evidence-based and best practices. That is 
encouraging to know you are using the evaluations that you have 
to do that.
    Mr. Reed, you talked about the services you provide in your 
community. Is it possible that a young person can learn about 
these services on their own, or is it always when they come 
into the system in some way before they are connected with a 
service?
    Mr. Reed. Actually, we have found that being proactive and 
very active in the community is critical to ensure that the 
kids know about our programs prior to any involvement with the 
justice system.
    I believe a community partnership strategy is very 
important so that the word spreads and we can get to our kids 
and young people much sooner before they begin to commit their 
criminal offense.
    I think it is possible, but it is really incumbent upon the 
organizations and community providers to have a continuum and a 
strategy to get the word out. That is sometimes looked at as 
maybe an indirect resource, but I think it is very critical to 
put resources into the education of young people. We spend a 
lot of time in schools, talking with young people in schools 
about our services. Thank you.
    Mrs. Foxx. Thank you, Mr. Chairman.
    Chairman Rokita. I thank the gentlelady. Mr. Polis, you are 
recognized for 5 minutes.
    Mr. Polis. Thank you, Chairman Rokita. Ms. Williams, in 
both the House and Senate bills that were passed to authorize 
the Juvenile Justice and Delinquency Prevention Act, the term 
``dangerous practice'' was defined as, ``An act, procedure, or 
program that creates an unreasonable risk of physical injury, 
pain, or psychological harm to juveniles subjected to the act, 
procedure, or program.''
    Both bills required States in their State plans to, 
``Describe the policies, procedures, and training in effect for 
the staff of juvenile State correctional facilities to 
eliminate the use of dangerous practices, unreasonable 
restraints, such as the shackling of pregnant juveniles during 
labor and delivery, and unreasonable isolation, including by 
developing effective behavior management techniques.''
    My question for you is would Colorado have any trouble 
conforming to this requirement?
    Ms. Williams. Thank you, Representative Polis. I do not 
believe we would have any problems in Colorado. In fact, this 
is something that our State legislature has been addressing, 
and to be quite honest, our Division of Youth Corrections, 
which is responsible for both the detention and commitment of 
juveniles under juvenile justice, has responded quite well to 
the suggestions. We have a representative of Youth Corrections 
on our State advisory group. They are an amazing partner with 
us and are well aware of the JJDP Act.
    Mr. Polis. Given your multi-state experience, do you think 
any State would have trouble conforming to those requirements?
    Ms. Williams. I believe some States--I honestly do not know 
enough about each State. I think there may be some States who 
struggle with it. What I would suggest is that there are enough 
of us other States who have been able to address it.
    That is the beautiful part of the JJDP Act, it really 
provides a learning community among all the States and 
territories and we can help each other. So if there are other 
States who are struggling with this particular issue or any of 
them, I am often called upon to help, and I have called other 
States to help on particular issues, so I would suggest we have 
solutions available.
    Mr. Polis. I ask because we have all seen the horror 
stories about the use of restraints on children in juvenile 
facilities. It was just a year ago this January that Gynna 
McMillen, a 16-year-old girl, died of cardiac arrhythmia in a 
Kentucky juvenile detention center after she was placed in the 
Aikido-styled restraint by center staff for refusing to remove 
her sweatshirt during booking.
    The restraint she was placed in is now one that is outlawed 
in Kentucky public schools, but it is still allowed by the 
Department of Juvenile Justice. While there is a suggestion 
that if the center staff had checked on Gynna through the 
night, every 15 minutes, as required by regulations, she might 
not have died, there is the question of whether the restraint 
played a role in her death, and evidence to that effect has 
been presented in the courts.
    I wanted to raise that story to highlight the need to train 
juvenile justice facilities and faculty to deescalate 
situations, resort to dangerous practices only when necessary, 
and to point out that Gynna was at the secured facility after 
police were called while she was getting into a fight with her 
mother.
    Judge Cubbon, I wanted to ask you about the indiscriminate 
use of shackles in juvenile courts. As you know, in most States 
juveniles are shackled often for court appearances without any 
proof of a flight or safety risk, and that is in contrast to 
adults, where courts have found there usually has to be a 
compelling security interest to necessitate shackling.
    In my home State of Colorado, the individual judicial 
districts have each recently developed their own procedures on 
shackling, and in many other districts there is now the 
rebuttable assumption that a juvenile offender does not need to 
be shackled or the practice has been prohibited except for a 
few violent offenders. I understand that is also the case in 
Ohio where you preside.
    Judge Cubbon. That is correct.
    Mr. Polis. Can you tell me what your experience has been 
with this? Have you felt any less safe in your courtroom when 
juvenile offenders came before you unshackled?
    Judge Cubbon. I can tell you this is another example of how 
education can enlighten parties when you are talking about a 
topic, just like solitary confinement issues, along the same 
lines.
    In the State of Ohio, we had a directive and request from 
the Ohio Supreme Court for the judges to look at the shackling 
procedures. As you can imagine, 88 counties in the State of 
Ohio and 88 different opinions.
    I really believe that once we circulated the research and 
the information, conversations with law enforcement, and 
amongst the judges, core personnel, and the people that we as 
judges have control over in the courthouses, we decided the 
research would indicate that even having a presumption against 
shackling would be beneficial.
    Do I feel frightened in my courtroom? No, I do not. I 
don't. I think as we continue to educate the judges across the 
country on that issue, creating presumptions against shackling, 
I think that will be an example of a procedure that will be 
eliminated across the country. I really do.
    Mr. Polis. Thank you. I yield back.
    Chairman Rokita. I thank the gentleman. Dr. Roe, you are 
recognized for 5 minutes.
    Mr. Roe. Thank you, Mr. Chairman. First of all, thanks to 
all the panel members. I think you do some of the most 
important work done in this country. You have young people 
whose entire lives are ahead of them that can go in two 
directions. One is not a very good direction.
    Just a personal story. I had an opportunity when my son--
remember, stupid is on the Y chromosome. He rolled the 
principal's yard at age 12 or 13 and was caught. We had to go 
to juvenile court. God bless Judge Underwood, who sentenced him 
to writing out ``I will never roll a house again'' 1,000 times. 
His father was not real happy about that trip.
    The story ends with he is a successful futures trader/owner 
in Chicago, Illinois. I thank Judge Underwood to this day, and 
had no more problems after that.
    I am a little distressed. We have a system, you are at the 
end of a problem that started to none of your doing. In our 
area now, we have an entire neonatal intensive care unit with 
drug-addicted babies. Twenty-five percent of those babies end 
up in foster care in the State of Tennessee in 1 year.
    It is the saddest thing in the world to see, and it is an 
enormous social cost, and an enormous cost to those children in 
the way they end up in their lives and where they end up.
    Chief, I am just going to ask, and any of you, what do you 
think the main reason for children entering the juvenile 
justice system is? If there is a thing you could put your 
finger on, what would it be?
    Chief Flannelly. I think you just touched on it, sir. It is 
incredibly sad. I think a lot of times for young police 
officers, it is one of the biggest adjustments they have, when 
you enter into the profession, you have a certain amount of 
idealism and you feel really good about the opportunity to go 
out and help, and you quickly realize that for some of the 
issues that you are facing, there is no law enforcement 
solution.
    I think over the years through evidence-based practices and 
other means, and just raising the level of professionalism 
across the board, we have made tremendous advances in our 
profession and others.
    I like to talk about in Indiana or in Lafayette in our PD, 
we like to consider ourselves one spoke on a much larger wheel. 
We try to focus on the problem and then look to see what kind 
of community resources we have in place that can help address 
the specific problem.
    I think that is the ultimate question, how do we address 
these issues at the earliest possible time so we can create the 
best outcomes down the road.
    Mr. Roe. Chief, there has obviously been a lot of negative 
aspects of police officers. You have seen this in the last 
couple or 3 years. How do you interact with young people who 
already have a very negative view?
    We have a very active community policing in my hometown. It 
is a small town of 65,000 people. My hat is off to those folks 
who every day go out. There is a resource officer at the 
school. I think children can get trust in by getting to know 
that police officer. How do you cross that bridge?
    Chief Flannelly. Community outreach is a key component to 
that. We have expanded in our agency. We are a midsized agency, 
142 officers. We have dedicated four officers just for that 
purpose alone. We have a school resource officer. We have DARE 
officers. All those things where we can create relationships 
that we know will help.
    Quite frankly, for law enforcement, we are fighting a 
battle on multiple fronts, and it is a perception battle as 
much as anything else. It can be very difficult when you are 
trying to do the best work you can for those best outcomes. A 
lot of times, there is just a lack of understanding of what the 
core issues are.
    I think you mentioned it, we are downstream from those 
issues. By the time the problems come to the attention of law 
enforcement, there were a lot of opportunities where we could 
have probably intervened, a lot of it really starting at the 
family level. What are the conditions in the home? What are the 
conditions in that child's environment that might be affecting 
which path they go?
    Unfortunately, when children are exposed, such as the story 
we heard about with Cassidy, that is an everyday, all-day-long 
thing for police officers in this country.
    Like the YWCA, we have very similar programs in Lafayette 
where we can intervene early. I think that is our best chance 
for success: outreach, trust. Just like the programs I 
mentioned earlier, those are also important parts where we can 
conduct this training. Juvenile Jeopardy is a perfect example 
where we have learned to interact with juveniles.
    Mr. Roe. Chief, thank you. My time has expired. But, Mr. 
Reed, I think you have had a successful career because you 
impacted one person's life. Thank you for that.
    Mr. Reed. Thank you.
    Chairman Rokita. The gentleman's time has expired. Ms. 
Fudge, you are recognized for 5 minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman, and thank you 
all so much for your testimony and for your work trying to 
protect our children. I know it is trying but very rewarding 
kind of work.
    I just want to say some years back in another life I was 
the mayor of a small city. Our police chief put in place 
midnight basketball, something very, very simple, for the 
police and for juveniles to interact together. During that hour 
and a half, it received not one call to the police department. 
So, interventions do help.
    Your Honor, thank you for being here. I, too, obviously am 
from Ohio. Pleasure to see you. Certainly, you are aware that 
since the last reauthorization of this act, funding has 
decreased by more than half. Tell me how it has affected your 
work, and what the real cost is if we do not invest in our 
future, in our children.
    Judge Cubbon. Well, first, I would like to respond for a 
second to Mr. Roe to say that being a juvenile court judge is 
probably one of the best jobs around the country, because we 
have an opportunity to participate and walk the walk with the 
family, making important changes in their lives, and the 
successes are enormous. One success at a time keeps us going.
    We are from Ohio. I am from Northwest Ohio. We have had our 
financial times in our community where we had to do a lot of 
cutting of our funding. It was an opportune time for us because 
this is the time when juvenile and adolescent brain science 
research was coming about. People were beginning to look at the 
way they handled children differently, are there better ways 
and practices, best practices, using data to make decisions.
    It was a great opportunity for us to look at resources and 
talk about maybe we should be reallocating them into programs 
that work, and into processes that work.
    There is great value for police officers and departments 
that want to begin diversion programs. They keep those kids out 
of court that probably do not need to be there in the first 
place.
    On the other end of the spectrum, we had an opportunity to 
develop our reentry programming for the kids who were, in fact, 
incarcerated, creating roadmaps for them to come home, using 
our resources wisely, so when they came home they were prepared 
to put into practice the work they had done in the institution, 
like cognitive behavioral therapy, family therapy, and such, 
but all the kids in between.
    We had an opportunity to focus on the children who had 
high-risk needs, investing our money wisely for efforts for 
them to make changes in their lives. And then the lower level 
kids, keeping them out of the system as best we can, supporting 
the families with community-based programming, respecting the 
families, having the community join us as partners so they can 
help us in assisting kids in making those changes in their 
lives, like schools and other organizations, mental health, 
becoming active partners.
    Ms. Fudge. Did the decrease in funding affect these 
programs? That is really my question.
    Judge Cubbon. I would say the decrease in funding has kind 
of limited the opportunities for other communities across the 
country to take advantage of them.
    When you become enlightened and you understand the work and 
you understand what is important in developing your 
programming, like letting the data show your results and such, 
you can kind of lie, but so many jurisdictions across our 
country really need that assistance. Talking about things like 
shackling, educating their communities.
    Ms. Fudge. Thank you very much. Mr. Reed, same question.
    Mr. Reed. Yes, I believe the first part of your question 
was the cost without the program, and it can be answered in 
terms of the State of Kentucky, if I might share, for a young 
person who let's say goes on to prison, for example. Let's say 
that is where they continue to head, that and the loss of 
potential income, that is about $100,000 per youth right now in 
the State of Kentucky.
    There is a significant financial cost. There is obviously a 
social cost when these programs are not available. Folks like 
Cassidy, we will not see those young people in school.
    In terms of how this decrease in funding has affected us, 
from our perspective, it has been a barrier in the sense of not 
being able to establish long-term planning for the programs 
that we have developed that seem successful and have shown 
results. Those are the programs we want to double. Those are 
programs we want to have additional funding for so that when we 
have to reassess and look for different funding sources, I 
think that delays our ability to serve more youth.
    Ms. Fudge. Thank you.
    Chairman Rokita. The gentlelady's time has expired. I thank 
the gentlelady. Mr. Garrett, you are recognized for 5 minutes.
    Mr. Garrett. Thank you, Mr. Chairman. First of all, I want 
to thank each one of the members of the panel for the 
impressive work you do.
    Judge, my hat tipped to you. I served for about 10 years as 
a prosecutor, including time as an elected prosecutor. The 
worse thing that ever happened to me was when the person who 
handled our juvenile court system would be out sick and I would 
have to go in there and navigate that second set of rules and 
understand the purpose of the system is different at that 
level.
    I wanted to ask you about your observations as it relates 
to prosecutors and their training in dealing with juveniles. I 
know we have had some problems with funding for prosecutorial 
training here in the past few years and in continuing to fund 
that.
    Do you see a marked difference based on the attitude, 
education, and experience level of prosecutors as it relates to 
the juveniles with the goal of getting them out of the system, 
and what would your observations and thoughts be about how we 
can help?
    Again, if the goal is diversion and a failure, for lack of 
a better word, or prevention, a much better word, from people 
entering the adult criminal justice system, what sort of things 
do you think we can do to train the people on that end of the 
criminal justice system to get better outcomes for young 
people?
    Judge Cubbon. I can say this first, in my 23 years, 
spending most of my time in the juvenile division, you are 
absolutely correct, there is a difference between being a 
prosecutor in the juvenile division and being a prosecutor in 
the adult division. I am here to tell you that I am one of 
those people who went to the adult division and said no, thank 
you, I am going to go back to juvenile court because this is 
the court of hope, right?
    Mr. Garrett. Right.
    Judge Cubbon. Right? I always say sometimes you have to 
take advantage of opportunities. I seriously believe that 
prosecutors, probation officers, the court, service providers, 
entering into interdisciplinary and multidisciplinary training 
or education is a win-win for the families that we serve, in 
whatever your role or capacity is.
    If you are a prosecutor, you are representing the victim. I 
learned this early on as a prosecutor, victims of juvenile 
cases, juvenile offenses, always want to give the child a 
chance to make changes in their lives. We know so much more now 
that I believe the prosecutors can assist us with that message 
to the victims and to the community, talking about we have to 
keep the public safe. That is their responsibility, the court's 
responsibility, and everybody else's.
    At the same time, having conversations about having 
effective screening tools, assessment tools, to make 
determinations about these risky behaviors a result of a trauma 
trigger, are they a result of maybe some social determinants 
that are getting in the way of them going to school, such as 
hunger, homelessness, is there abuse going on in their homes.
    Prosecutors having conversations and being trained and 
attuned to those kinds of situations can fashion their 
recommendations to the court to make important changes in these 
kids' lives because, let's be honest, if we have high-risk and 
moderate-risk behaving children and we can give them 
appropriate services to change their behaviors, then we have 
the likelihood for a safer community.
    Coming together as a team. I can tell you the National 
Council of Juvenile and Family Court Judges has offered 
training for prosecutors, as they do with public defenders and 
others, looking at it as a joint effort to make recommendations 
that are in the best interest of the child and their family 
and, likewise, in the best interest of the community.
    Mr. Garrett. Thank you, Judge. I do not have a lot of time 
remaining. Ms. Williams, you are from Colorado. Colorado has 
been a leader as it relates to legalization of cannabinoids, 
and it is something where I see a failure on our part here at 
the Federal Government level because essentially if you enforce 
federal law one way in one State and differently in another, 
then you fail to have equal justice by virtue of the fact that 
justice that is not blind is not justice.
    To me, I want to watch and see what happens in Colorado, 
and I'd like to have the states have a stronger purview over 
their own policy vis-a-vis this Tenth Amendment thing. Do you 
have any experience or insight as to the juvenile justice 
experience in Colorado?
    I have been looking at a lot of the data, which some of it 
is actually quite encouraging, actions taken in Colorado with 
relation to cannabinoids.
    Ms. Williams. Thank you very much, Representative Garrett. 
Actually, the division that I work in is responsible for 
collecting data regarding marijuana in our State. To be quite 
honest, it is still very early. We do have conflicting data. 
Some Federal data suggests it is getting worse for young people 
and others that say actually use is going down.
    I think we need more time to decide.
    I do think regardless of whether it is being driven by the 
increased exposure to marijuana, we still have a drug issue in 
our country. Certainly in Colorado, opioids are actually a 
bigger problem than any, and the need for treatment and 
treatment that will work is probably even more important for us 
and for other States in the Nation.
    Chairman Rokita. The gentleman's time has expired.
    Mr. Garrett. Thank you, Mr. Chairman.
    Chairman Rokita. The prosecutor did a good job of dropping 
a question with 2 seconds to go. The gentlewoman from Oregon is 
recognized for 5 minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and 
ranking member, and thank you to all our witnesses. This is a 
great discussion.
    I wanted to just point out this interconnectedness, 
following up on some of the questions that have been asked. 
Just yesterday I had in my office a group of healthcare 
providers from Oregon.
    With our Medicaid expansion, we have coordinated care 
organizations. These happen to all be from rural areas.
    They talked about the work they are doing really based on 
the CDC-Kaiser adverse childhood experience (ACE) study, which 
is now several years old, but they talked about the recognition 
that childhood abuse and neglect affects later in life, and 
working with early learning hubs and having that coordinated 
care is making such a difference. They call it ``self-healing 
communities.''
    Based on the same model, our neighbor to the north, in one 
county in Washington, they saw teen births down 62 percent, 
youth suicide and attempts down 98 percent, youth arrests for 
violent crimes down 53 percent, and dropout rates down 47 
percent.
    My point is this is something that our healthcare providers 
are working on in rural communities with our Medicaid expansion 
dollars, and I urge all my colleagues to keep things like this 
in mind as we talk about things like health care reform, and 
also as we talk about how we engage students in school.
    For example, our career and technical education bill that 
passed the House, but not the Senate. If we are engaging 
students in school, they are much more likely to stay engaged 
and out of the criminal justice system.
    I wanted to also ask, one of my priorities is for those 
youths who are in the system, I am really concerned about 
preserving the continuity of their education. Making sure they 
have access to quality education while they are in the juvenile 
justice system is really critically important to their reentry.
    We have a great partner in Oregon, our Oregon Youth 
Authority. They are responsible for more than 1,300 young 
adults in the juvenile justice system. They had 150 youth who 
earned their high school diplomas and GEDs last year.
    I wanted to ask the panel, but I will start with Judge 
Cubbon, how can an update to the JJDPA promote the continuity 
of education for youth who are incarcerated? How can we best 
support the youth who are returning to traditional schools 
after they have been incarcerated? I'll start with the Judge.
    Judge Cubbon. Thank you. I would say that we have 
frustrating conversations about education amongst this 
population of kids regularly. We in the State of Ohio are lucky 
that our Department of Youth Services has made a concerted 
effort to help kids get credit recovery, maybe pursue a GED for 
the older children that are incarcerated, and to start to look 
at their special educational needs while they are in the 
institution, so when they can come home, they are better 
prepared for whatever their educational setting is going to be.
    Ms. Bonamici. What are the barriers? Why are not more 
students able to continue their education while they are 
incarcerated?
    Judge Cubbon. I do not want to say it is mandated in Ohio, 
but it is pretty much mandated in Ohio until they are 18 in the 
institutions. To me, the more frustrating part is we have these 
kids that are ready, willing, and able to come back home and 
ready to go into a GED program, continuing ed program, and 
their success is limited in the beginning. They are coming home 
after a period of time, so they have to re-indoctrinate 
themselves in their homes and in the community, and that bad 
kid memory, oh, there is that kid again.
    I think it is really vitally important that we begin 
partnering in a more deliberate way with the education system 
leading the way to help us help those kids and answer those 
questions.
    I know that is really vague, but it is really an area that 
is really very frustrating.
    Ms. Bonamici. Does anyone else have a response in my 
remaining 36 seconds?
    Mr. Reed. I will be very quick. I think one challenge is 
being confined in detention, in secure confinement, would mean 
you are posing a risk to the community. It is for safety. I 
think there is a philosophical difference. You are going into 
the justice system because you are a risk to the community.
    I really feel it is hard to fold education into that 
because the intent of the justice system is to keep the 
communities safe. I think it needs to expand or we need to deal 
with the fact that the intent of justice is safety and, 
therefore, I am a huge believer in let's keep as many out as 
possible.
    Ms. Bonamici. One of the intents, but my time has expired, 
and I yield back. Thank you, Mr. Chairman.
    Chairman Rokita. The gentlelady is correct, her time has 
expired. I am going to recognize myself for 5 minutes at this 
time.
    Starting with you, Chief, you talked about a couple of 
programs, Policing the Teen Brain and Juvenile Justice 
Jeopardy, and you have answered questions around that, I 
believe, already.
    Mine is specific. How do these programs impact your 
officers' daily shifts? Is this complementary to it? Is this 
another task? Enlighten us.
    Chief Flannelly. The training that we conduct with the 
officers, we do it in an environment outside of their work day. 
The programs, they typically run 2 to 3 days. We actually have 
peers that will train; we have peer-to-peer trainers.
    Chairman Rokita. Is that good or bad? Do they do that 
willingly?
    Chief Flannelly. Absolutely.
    Chairman Rokita. Is it on their own time?
    Chief Flannelly. No, we do it on department time. At first, 
we were a little concerned as to how it was going to be 
accepted, but once the officers get in there, they realize the 
science behind what they are learning, and this is going to be 
a very effective tool for them when they are having these 
interactions out on the street and in moments of crisis.
    We do not deal with people in the calm moments. We are 
called because something significant has happened, whether it 
is a crime, a fight, whatever that might be.
    It is a great opportunity for officers to understand they 
might not be talking to the prefrontal cortex of a 16-year-old. 
They are talking to the midbrain. For them to understand, okay, 
he may be saying some things right now and he does not really 
mean it. They have just a better understanding.
    Chairman Rokita. Ultimately, this helps them in their daily 
work?
    Chief Flannelly. It helps significantly. We have had 
tremendous feedback, and now we have officers that look forward 
to going through the program.
    Chairman Rokita. Thank you. Mr. Reed, Ms. Williams, and 
perhaps you have talked about various agencies that engage one 
another as they serve the same youth. Talk to me more 
specifically about how that is coordinated, if there is waste 
involved, how you manage that coordination when youths are 
being serviced by more than one program or agency.
    Mr. Reed. I think it is very important to have a central 
agency that is coordinating and staying in communication with 
the other providers. I also think it is important to have--one 
of the things I have with my staff, my staff sit on key 
community advisory boards and coalitions to stay in tune with 
what programming is going on. And on a specific level, I think 
it is important that we as organizations recognize what our 
role is, what we are good at, and bring that to the table.
    I think it is important in partnerships that you have the 
decision makers at the table. There is nothing more frustrating 
when partners come together and folks are not able to follow 
through or make that commitment.
    Chairman Rokita. Is this something, Mr. Reed, where we 
should rely on local leadership and leaders being leaders, or 
is this something that we can legislate here in terms of more 
impactful overlap or no overlap, however it would work?
    Mr. Reed. I think anything that could provide incentive on 
the back end of services from a funding perspective would be a 
wonderful step.
    One of the challenges, I think, for example, if there was 
some sort of incentive-based opportunity to acquire funding, 
that would help galvanize and line people up to this work in a 
way that is not sort of spinning our wheels, that is how it 
feels, to have something to reach for.
    Chairman Rokita. What does ``spinning your wheels'' mean? 
Can you give me an example?
    Mr. Reed. Sure. I will give you an example. When decision 
makers are not at the table, let's say the funding source is 
something that you receive as a result of a grant, for example. 
I think organizations need to be held accountable to the 
commitments they make within those funding proposals.
    I feel like when that accountability is not there, that is 
what I am referring to, it feels like we are spinning our 
wheels. We are not maximizing the opportunity we have with the 
gifts and contributions and the grants that we receive. I have 
been a big proponent of that in our organization.
    Chairman Rokita. Thank you. I have questions for the other 
two witnesses, but there is no way it is going to happen in 15 
seconds. I am going to try to get with you afterwards via email 
or something, and maybe you can respond back. I appreciate it.
    I yield back. Mr. Scott, the ranking member of the 
committee, you are recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I think it is important to note that all 
of the discussion about how we can effectively reduce crime has 
been focused on prevention, early intervention, and 
rehabilitation, and not in the after-the-fact, simpleminded 
slogans in sound bites of how much punishment we can inflict 
and waste the taxpayers' money.
    Ms. Williams, can you explain why it is cost effective to 
invest in prevention rather than wait until children drop out 
of school, join a gang, get caught, and then impose draconian 
sentences after they get caught? Can you say how expensive it 
is to pay for that strategy when effective prevention and early 
intervention services can be provided?
    Ms. Williams. Thank you, Representative Scott. Thank you 
for your leadership over the years. I truly appreciate it.
    Yes, you have all heard an ounce of prevention is worth a 
pound of care, correct? When we look at the cost of serving 
youth--I call it ``earning your way deeper into the system,'' 
because the kids have obviously done things that they have 
earned their way deeper into the system.
    In Colorado, and I think it is going to be similar 
elsewhere, when youth will earn their way into what is our 
version of youth commitment, which is adult prison, it can run 
upwards of $350 per day per youth, and that includes treatment. 
It can cost $2,300 to $4,800 per case on probation.
    When you add up those numbers against the numbers of youth 
who find their way into our system, it is pretty extreme. And 
yet, if you are working with a young person, if you are working 
with a child that you have identified, for example, in school 
who is starting to struggle, they are starting to not show up, 
even at a young age, and the schools are able to pull in their 
multidisciplinary partners, let me tell you, you get people 
around the table like in a multidisciplinary process, you start 
talking, and you realize you are overlapping and there are ways 
that one system can pull out of doing this and fill this other 
gap, and then you are not wasting funds.
    So, working in a multidisciplinary way where you identify 
these young people as early as possible allows you to get in 
there and provide services to them, but, more importantly at 
that point, you are providing services to the families.
    When a youth goes into our youth justice system, sometimes 
people forget they are going to go home, and if we have not 
addressed those issues that were happening in the home before 
they came to us, they are not going to be real successful when 
they go back.
    I am very proud in our State because they really focus on 
family engagement all the way through, but the earlier we do 
that, the more success we are going to have, because you are 
not going to have behaviors entrenched. The kids are not going 
to be starting to think of themselves as a criminal. They are 
going to see success in developing relationships in their 
communities that are positive rather than negative. I hope that 
helps.
    Mr. Scott. Thank you. You mentioned the Office of Juvenile 
Justice and Delinquency Prevention and Research. Have you been 
getting research from them?
    Ms. Williams. To be quite honest, in the past couple 
months, I have not been looking for it. I am not sure how much 
they have been able to do. Just as States have suffered 
reductions in funding, so have they. Like I said, research 
costs money. I would hope we could all start being able to do 
more of that.
    Mr. Scott. Thank you. Judge Cubbon, can you tell me what 
you can do as a juvenile court judge that a juvenile referred 
to adult court would not get?
    Judge Cubbon. In our State, in order to be tried as an 
adult, the prosecutor or the State has to show that there is no 
opportunity for rehabilitation in the juvenile justice system 
within a finite period of time.
    Mr. Scott. You have to do that before the transfer?
    Judge Cubbon. Yes.
    Mr. Scott. If they are not transferred, are there services 
you can provide that the adult court judge cannot do?
    Judge Cubbon. Yes.
    Mr. Scott. There is a thing called a ``valid court order'' 
which allows some judges in some States to lock up children who 
are found in violation of status offenses, offenses that would 
not even be a crime but for their age.
    Does Ohio allow judges to lock up children because of 
status offenses? And is that process important, to be able to 
lock up people for status offenses?
    Judge Cubbon. As you know, the valid court order exception 
is a court order that can be used to hold juveniles who are 
maybe under the jurisdiction of the court for those status 
offenses that you are talking about.
    I am in a jurisdiction where we have actively looked for 
community responses to assist those children who are unruly 
children, are status offenders, and do not need to be 
incarcerated, they do not need to be before the court.
    If you can develop a system of well-intentioned, meaningful 
responses based on their needs, using screening tools and 
assessment tools to address their issues, then incarcerating 
them no longer becomes an option, right?
    The reality is for a lot of these children, incarcerating 
these children hurts them. Many of these children are victims 
of trauma, abuse, neglect, and all sorts of other issues. We 
are not a mental health institution. We are not a disability 
institution. We are not respite care for foster parents.
    When the community understands that, maybe we can develop 
some ways to approach--
    Chairman Rokita. The gentleman's time has expired. The 
ranking member is recognized for closing.
    Mr. Polis. I want to thank the chairman and I want to thank 
our witnesses for being here today, and for each of your 
commitments to our Nation's youth.
    I think it is clear from today's hearing that progress is 
being made in many States across the country that is data-
driven and science-based.
    For example, Ms. Williams, thanks for sharing some of the 
work you are helping lead in Colorado; Mr. Flannelly, 
describing some of the innovative approaches in Indiana.
    In addition to this progress, we need to do more work to 
reform and improve our juvenile justice system at the Federal 
level.
    As we heard today, youth that are in the juvenile justice 
system are predominately male and people of color. I also want 
to point out that more must be done to protect LGBTQ youth, 
particularly transgender youth, in a gender-appropriate manner. 
Studies have also shown that LGBTQ youth are overrepresented in 
the juvenile justice system and are more vulnerable to 
discrimination and abuse within the system.
    There is also the continued use of dangerous practices, 
including some that have resulted in death, like restraints and 
corporal punishment that occur within the juvenile justice 
system.
    The best way to address these issues is at the Federal 
level through reauthorizing the Juvenile Justice and 
Delinquency Prevention Act, which has not been reauthorized 
since 2002. As we heard today, it needs to be updated to keep 
up with the latest research and best practices for protecting 
vulnerable youth. It needs to be updated so that funding can be 
restored to its full authorization levels.
    I do want to take this opportunity to point out that 
funding for the Juvenile Justice and Delinquency Prevention Act 
has dropped over the past several years, and without a new law, 
we are not only expecting States to comply with outdated 
policy, but we are expecting them to do it with less and less 
funding. That really underscores the need to pass a new law.
    In the last Congress, the committee worked in a bipartisan 
way to mark up and pass the Juvenile Justice and Delinquency 
Prevention Act reauthorization. We successfully passed the bill 
on the floor with overwhelming bipartisan support.
    I am optimistic we can do that again this Congress. I look 
forward to working with my Republican and Democratic colleagues 
to achieve that goal, and I yield back the balance of my time.
    Chairman Rokita. I thank the gentleman. I appreciate the 
witnesses' testimony as well. I continue to learn a lot. I am 
grateful for your leadership and the leadership of those you 
represent across the country that do the work that you do, as 
Dr. Roe mentioned during his questioning. You are on the front 
lines and you see this every day, and your leadership is needed 
and appreciated, first and foremost by me.
    To cut through the bureaucracy a little bit, I am going to 
use my closing remarks to get a couple of questions on the 
record. You cannot respond, but we will provide you with a 
transcript if you would like, free of charge, Judge.
    Ms. Williams, actually Mr. Scott asked my question or 
similar to it, and you covered it. I am satisfied there.
    To the judge, you mentioned you are the ``court of hope,'' 
and as a former practitioner sometimes in the juvenile system, 
I completely agree. My data point is small, it is one court 
system, and it was probably 13 to 15 years ago now.
    Almost every time when I would bring a client through, my 
goal was to keep them out of the system because, in fact, there 
was no hope, I felt, when they got in there with other 
juveniles, and they came out more hardened criminals, in my 
opinion.
    That does not mean we did not want personal responsibility 
to be upheld. There were lessons to be learned, and I tried to 
craft pleas that reflected that. Sometimes it worked, and 
sometimes I was met with--I do not know how to describe it--
almost automaton, no. And present company excepted, of course, 
but no, this is the rule, this is how we do it here in this 
county, whether it was law enforcement or the prosecutor, and 
that was sometimes disappointing. Again, 15 years ago. I would 
have hoped that we have learned and got beyond that.
    My question would be--Dr. Roe's example is perhaps a good 
one. His son was made to write 1,000 times as part of his 
punishment. Do you feel that the judges have that kind of 
latitude, to craft creative personal responsibility measures as 
they see fit? Is the discretion there, or do you feel you are 
actually worried about the ACLU or someone like that jumping in 
and saying, no, they cannot shovel that person's driveway as 
part of their punishment, or whatever the creative solution 
might be? They have to go through this or the county is going 
to get charged with more money in a lawsuit that has to be 
defended. So, better to just put them in the system because we 
know the county cannot get sued that way.
    I think you see where I am going with my question. I would 
appreciate your professional opinion in that regard. Thank you 
very much.
    I appreciate the ranking member's comments about the 
bipartisan nature of this. I expect the same this Congress. I 
will say the funding to a large extent was there in the 
solution we had and it was paid for, the other part of this, 
because if you come to my personal office and anywhere you go 
on the Internet, you see that we are $20 trillion in debt.
    And that does not mean our subject today is not a priority. 
It means that if it is a priority, as it should be, we should 
be asked to ask ourselves and the country what is less of a 
priority to pay for this, so we do not give these youth an 
additional problem, which is going to be 30- to $50 trillion in 
debt by the time they are of age. I think that is a reasonable 
balancing act that we should be performing.
    I would like to close my comments by referencing Mr. Reed 
and his accountability comments, his testimony. I think that is 
key to all of us. I think if we are truly leaders, as you are, 
and people you represent, you can find those ways to make that 
happen.
    In fact, we had some accountability reform measures put in 
as a bipartisan act from last time, and I expect we will see it 
again.
    With that, thank you again, I appreciate the witnesses, and 
I appreciate the members who stayed and were able to 
participate today, and I am grateful for the work of this 
committee from last Congress and what is to be done this 
Congress.
    With that, seeing no further business before the committee 
today, we stand adjourned.
    [Additional submission for the record by Mr. Rokita 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Questions submitted for the record and their responses 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [Whereupon, at 11:26 a.m., the subcommittee was adjourned.]

                                 [all]
                                 
                                 
                                 
</pre></body></html>
